DATE:                         December 20, 2004

MEMORANDUM FOR:                SAMUEL T. MOK
                               Chief Financial Officer



FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General
                               for Audit

SUBJECT:                      United States Department of Labor Report on Findings and
                              Recommendations Identified in an Audit of the Report on
                              Performance and Accountability,
                              September 30, 2004
                              Final Report No. 22-05-001-13-001

Attached is the final CFO findings and recommendations report, resulting from an audit of the
Department of Labor’s Report on Performance and Accountability as of and for the year ended
September 30, 2004. The Office of Inspector General contracted with R. Navarro & Associates,
(RNA) Inc., an independent public accounting firm, to perform this audit. The contract required
that the audit be done in accordance with auditing standards generally accepted in the United
States of America (GAAS), Government Auditing Standards (GAS), and Office of Management
and Budget audit requirements.

This report contains findings and recommendations pertaining to reportable conditions and
management advisory comments. The auditor’s did not report any noncompliance with laws and
regulations. Also, this report does not contain any findings and recommendations pertaining to
the Department’s general and security controls over EDP systems. EDP findings and
recommendations were issued in a separate report to the Chief Information Officer.

We reviewed RNA's report and related documentation and inquired of its representatives.
However, RNA is responsible for the attached CFO findings, recommendations, and the
conclusions expressed in this report. Our review disclosed no instances where RNA did not
comply, in all material respects, with auditing standards generally accepted in the United States
of America (GAAS), Government Auditing Standards (GAS), and Office of Management and
Budget audit requirements.

Management’s responses have been included in their entirety after each recommendation. Please
provide a corrective action plan for each of the unresolved recommendations presented in the
final report by March 31, 2005. Please notify us when corrective action has been completed on
any particular recommendation. The adequacy of the corrective actions taken will be reviewed
as part of the FY 2005 performance and accountability audit. If you have any questions, please
contact Mike McFadden, Office of Accountability Audits, on 693-5144.

Attachment

cc:    Steven J. Law
       Patrick Pizzella
       David Dye
       Emily Stover DeRocco
       John L. Henshaw
       Howard Radzely
       Victoria A. Lipnic
                                              DOL PERFORMANCE AND
                                              ACCOUNTABILITY REPORT


Office of Inspector General—Office of Audit




                                              U.S. DEPARTMENT OF LABOR
                                              FINDINGS AND RECOMMENDATIONS
                                              IDENTIFIED IN AN AUDIT OF THE
                                              REPORT ON PERFORMANCE AND
                                              ACCOUNTABILITY




                                              ___________________________________
                                              Assistant Inspector General for Audit
                                               This report was performed by CPAs under contract to the Office of Inspector
                                               General, and by acceptance, it becomes a report of the Office of Inspector
                                               General.




                                                                               Assistant Inspector General for Audit




                                                                              Date Issued: December 20, 2004
                                                                              Report Number: 22-05-001-13-001
                                                                           Findings And Recommendations Identified In An
                                                                    Audit Of The Report On Performance And Accountability

                                                                CONTENTS

ACRONYMS ............................................................................................................................................... ii


INDEPENDENT AUDITORS’ REPORT ON
FINDINGS AND RECOMMENDATIONS IDENTIFIED
IN AN AUDIT OF THE REPORT ON PERFORMANCE
AND ACCOUNTABILITY ........................................................................................................................ 1


FINDINGS AND RECOMMENDATIONS RELATED TO
REPORTABLE CONDITIONS

     1. PROPERTY AND EQUIPMENT ............................................................................................... 3

     2. ACCOUNTING FOR GRANTS ................................................................................................ 12

     3. UNEMPLOYMENT TRUST FUND ......................................................................................... 15

     4. FEDERAL EMPLOYEES’ COMPENSATION ACT ............................................................. 17

     5. PROCUREMENT ....................................................................................................................... 21

     6. MANAGERIAL COST ACCOUNTING .................................................................................. 25


MANAGEMENT ADVISORY COMMENTS

     1. JOB CORPS PROGRAM ........................................................................................................... 27

     2. ACCOUNTING FOR GRANTS................................................................................................. 28

     3. UNEMPLOYMENT TRUST FUND.......................................................................................... 31

     4. BLACK LUNG DISABILITY TRUST FUND.......................................................................... 31

     5. FEDERAL EMPLOYEES COMPENSATION ACT ............................................................... 32

     6. PERFORMANCE MEASURES................................................................................................. 34

     7. LONGSHORE AND HARBOR WORKERS’
        COMPENSATION ACT SPECIAL FUND ............................................................................... 36

     8. ACCOUNTABLE PROPERTY ................................................................................................. 37




Report No. 22-05-001-13-001                                                                                                                            i
                                                   Findings And Recommendations Identified In An
                                            Audit Of The Report On Performance And Accountability


                                         ACRONYMS
A&E          Architecture and Engineering
ACS          Affiliated Computer Services Inc.
APO          Accountable Property Officer
ASC          Ambulatory Surgical Center
AWIA         Acquisition Workforce Improvement Act
BAM          Benefit Accuracy Measurement
BPA          Blanket Purchase Agreement
BPC          Benefit Payment Control
CAMO         Capitalized Asset Management Officer
CATARS       Capitalized Asset Tracking and Reporting System
CE           Claims Examiner
CFO          Chief Financial Officer
CIP          Construction in Progress
CTS          Career Transition Service
CY           Calendar Year
DBFS         Division of Budget and Facilities Support
DCMWC        Division of Coal Mine Workers’ Compensation
DGR          Detailed Grant Report
DLHWC        Division of Longshore and Harbor Workers’ Compensation
DLMS         Department of Labor Manual Series
DOL          U. S. Department of Labor
DOLAR$       Department of Labor Accounting and Related Systems
EIMS         Enterprise Information Management System
EPMS         Electronic Property Management System
EPS          Electronic Procurement System
ESA          Employment Standards Administration
ETA          Employment and Training Administration
ETO          Employment and Training Order
FAR          Federal Acquisition Regulations
FECA         Federal Employees Compensation Act
FY           Fiscal Year
GAO          Government Accountability Office
GPRA         Government Performance and Results Act
IT           Information Technology
LHWCA        Longshore and Harbor Workers’ Compensation Act
JCDC         Job Corps Data Center
JFMIP        Joint Financial Management Improvement Program
JTPA         Job Training Partnership Act
MCA          Managerial Cost Accounting
OASAM        Office of the Assistant Secretary for Administration and Management
OCFO         Office of the Chief Financial Officer
OFAS         Office of Financial and Administrative Services
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPS          Office of Procurement Services
OWCP         Office of Workers' Compensation Programs
OWS          Office of Workforce Security
PER          Periodic Entitlement Review


Report No. 22-05-001-13-001                                                                   ii
                                                  Findings And Recommendations Identified In An
                                           Audit Of The Report On Performance And Accountability


                                         ACRONYMS
                                         (Continued)

RMO          Responsible Mine Operator
SOP          Standard Operating Procedure
SFFAS        Statement of Federal Financial Accounting Standards
UCAC         Unemployment Compensation Advisory Council
UI           Unemployment Insurance
UIDV         Unemployment Insurance Data Validation
UIS          Unemployment Insurance Service
WCF          Working Capital Fund
WIA          Workforce Investment Act
WOW          Workload Organization Window




Report No. 22-05-001-13-001                                                                 iii
Mr. Samuel T. Mok
Chief Financial Officer
U. S. Department of Labor
Washington, DC 20210

                             Independent Auditors’ Report on Findings
                          And Recommendations Identified in an Audit of the
                             Report on Performance and Accountability

We have audited the Report on Performance and Accountability of the United States Department of Labor
(DOL) for the year ended September 30, 2004, and have issued our report thereon dated November 15,
2004. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial statement audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered DOL’s internal control over financial reporting by
obtaining an understanding of the Department’s internal control, determined whether internal controls had
been placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to provide
assurance on internal control. Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions are
matters coming to our attention relating to significant deficiencies in the design or operation of the
internal control that, in our judgment, could adversely affect the organization’s ability to record, process,
summarize, and report financial data consistent with the assertions of management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected. We noted certain
matters, discussed in the following pages, involving the internal control and its operations that we
consider to be reportable conditions and other conditions considered as management advisory comments.

With respect to internal control related to performance measures reported in the Department’s fiscal year
(FY) 2004 Performance and Accountability Report, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions and determined whether
they have been placed in operation, as required by OMB Bulletin No. 01-02. Our procedures were not
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability

designed to provide assurance on internal control over reported performance measures, and, accordingly,
we do not provide an opinion on such controls. This report does not contain current or prior year findings
and recommendations pertaining to our audit of the Department’s general controls and security over
Information Technology (IT) systems that support the financial statements in accordance with
Government Accountability Office (GAO) audit guidelines. A separate report was issued on
October 18, 2004, to the Chief Information Officer containing IT related findings and recommendations
for resolution.

The Independent Auditors’ Report, which expresses our opinion on the fair presentation of DOL’s Fiscal
Years 2004 and 2003 principal financial statements, and our reports on internal control and compliance
with laws and regulations, is presented in the Department’s FY 2004 Performance and Accountability
Report.

In order to provide information to management that could help in the development of responses and
corrective actions for the instances of noncompliance and reportable conditions and other conditions
noted (Management Advisory Comments), we are providing the following findings and recommendations
to the Chief Financial Officer (CFO).

This report is intended solely for the information and use of the management of the Department of Labor,
OMB and Congress, and is not intended to be used and should not be used by anyone other than these
specified parties.



November 15, 2004




Report No. 22-05-001-13-001                                                                             2
Reportable Conditions
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

1.     Property and Equipment
       Status of Prior Year Findings and Recommendations

       Job Corps Real Property

       In the FY 2003 DOL Audit (DOL Report No. 22-04-002-13-001), the Office of Inspector General
       (OIG) reported that the Employment and Training Administration (ETA) did not sufficiently
       utilize the Capitalized Assets Tracking and Reporting System (CATARS) as a complete property
       management system in accordance with the CATARS user guide. We also found that ETA did
       not establish sufficient controls to ensure that Job Corps’ capitalized real property was
       safeguarded and accurately reported in CATARS and the Department of Labor Accounting and
       Related Systems (DOLAR$). We made the following recommendations:

        We recommended the Chief Financial Officer and the Assistant Secretary for Employment
        and Training ensure that:

            An annual physical inventory of all Job Corps real property is performed and the
            inventory results reconciled to CATARS and DOLAR$.

       In response to this finding, ETA stated that its Office of Financial and Administrative Services
       (OFAS) agreed with Job Corps’ Division of Budget and Facilities Support (DBFS) to have
       DBFS’ Architecture and Engineering (A&E) contractor conduct a physical inventory of the Job
       Corps capitalized real property as part of the contractor’s routine center review. ETA stated that
       this task was accomplished January 2004 and it is to be completed annually by the end of the
       calendar year.

       The U.S. DOL CATARS User Guide, Sections 2.7 and 2.72, state respectively:

           Annual reconciliations must be performed between physical counts of property and
           balances recorded in the CATARS and DOLAR$ systems.

           Physical counts of property are conducted at the end of each fiscal year to compare
           the capitalized assets recorded on the books with those actually on site.

        We confirmed that ETA conducted a physical inventory and we found that ETA developed draft
        procedures that require annual physical inventories be performed. However, we determined that
        the physical inventory was incomplete; the draft procedures require the physical inventories be
        performed at the end of the calendar year, whereas the CATARS User Guide requires fiscal year
        inventories; and ETA did not establish a date for implementing the draft procedures in final form.

        The physical inventory was not a complete inventory because it did not include all the items
        listed in CATARS. We found that ETA used the CATARS “Physical Inventory Report” to
        conduct the inventory. We reviewed this report and noticed that items with vague descriptions
        were not listed even though they were on the CATARS “Detail Balance Report”. These items
        are described in CATARS as as “bb”, “A/E numbers”, Job Corps Center name, etc. ETA
        assumed the inventory report they were using contained all the Job Corps real property but
        agreed with our conclusion that the inventory did not contain items with vague descriptions. We
        did not determine why the items with vague descriptions were not in the CATARS “Physical
        Inventory Report." Using the CATARS Detail Balance Report dated March 31, 2004, we found



Report No. 22-05-001-13-001                                                                             3
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

        there were 700 Job Corps real property items in CATARS with vague descriptions. These items
        should be properly described and included in the inventory so that ETA can determine whether
        or not they are capitalized assets that should be reported in the DOLAR$ subsdiary ledger –
        CATARS.

        ETA provided us a copy of their draft National Accounting Policies and Procedures Manual.
        Section 4.5.2, Capitalized Assets, contains a requirement that a physical inventory of all Job
        Corps real property be performed annually. However, we reviewed the draft policies and
        procedures and found they need to include how the inventory is to be conducted. Additionally,
        ETA did not provide a plan for implementing the policies and procedures that will ensure they
        are communicated to supervisors and employees, actually applied, and applied properly.

       The recommendation remains unresolved. To resolve the recommendation, ETA needs to
       provide a corrective action plan, including dates for completing the plan. The plan needs to
       address the following:

       1. How ETA will address the items with vague descriptions to ensure they are included in the
          physical inventory and how appropriate adjustments will be made to CATARS and
          DOLAR$.

       2. The planned date for making the appropriate adjustments to CATARS and DOLAR$ based
          on the results of the inventory already taken.

       3. The timing of the physical inventory.

       4. How they will communicate the final National Accounting Policies and Procedures Manual
          to the individuals responsible for performing the inventory to be conducted by the end of each
          calendar year and reconciling the results to CATARS and the General Ledger.

       5. The planned date for finalizing and implementing the National Accounting Policies and
          Procedures Manual, Section 4.5.2.

       Management’s Response

       “Management concurs with the OIG findings of deficiencies in the FY 2003 physical inventory of
       Job Corps real property. OFAS will work with Jobs Corps management to develop an efficient
       and cost-effective method of accomplishing these inventories at the centers. These inventories
       will have to be performed probably on a staggered schedule, rather than simultaneously. If
       necessary, ETA will request revisions or waivers for applicable DLMS [Department of Labor
       Manual Series] chapters and the CATARS User Guide regarding the scheduling of the Job Corps
       center inventories. Once these issues are resolved, management will issue revised inventory
       procedures and commence the annual inventory process. At this time management expects to
       schedule physical inventories in the latter half of the fiscal year to provide time to resolve the
       problem of improperly described assets (addressed below). It is anticipated that this process will
       be completed by September 30, 2005.”

       Auditors’ Conclusion

       The recommendation remains unresolved. To resolve the recommendation, ETA needs to
       provide a corrective action plan addressing each of the five points specified in the finding and the
       dates for completing the plan.


Report No. 22-05-001-13-001                                                                              4
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

.
            Additions and dispositions are recorded timely in CATARS by developing and
            implementing quarterly procedures to:

           -   transfer CIP balances recorded in CATARS to the appropriate depreciable asset
               account, where the DBFS records of contracts/structures indicate that Certificates of
               Substantial Completion have been issued;

           -   reconcile DBFS records for dispositions to the A&E contractor records and to entries
               in CATARS; and

           -   reconcile DBFS records of additions and deletions to OFAS records of additions and
               deletions recorded in CATARS.

       Our FY 2004 audit found that ETA‘s draft National Accounting Policies and Procedures Manual,
       Capital Assets section, contained procedures to ensure additions and dispositions are recorded
       timely in CATARS. However, ETA has not provided the date when they plan to finalize and
       implement the draft procedures.

       Additionally, we found the prior year’s findings continue to exist. Specifically:

       Additions

       Our review of the Job Corps construction in progress (CIP) account showed it still contains
       completed capitalized construction projects. Specifically, we found the following.

       1. Of the 22 completed contracts identified in the prior year finding, 6 are still in CIP as of
          March 31, 2004. The six contracts total $1.3 million.

       2. As of March 31, 2004, the total number of contracts in CIP was 164 with an approximate
          value of $130 million. To date, we have identified 13 CIP contracts that have been
          completed and should have been moved from CIP to the building or leasehold improvement
          account. The value of these completed projects was $44.3 million.

        Dispositions

        Our audit found that Job Corps’ center buildings disposed of or no longer in service are being
        reported in CATARS as depreciable assets. Specifically, we found the following.

        1. The CATARS inventory as of March 31, 2004, showed that 11 of the 13 assets cited as
           disposed in our FY 2003 audit were still being reported in CATARS. The value of these
           assets, net of accumulated depreciation, totaled $277,977.

        2. For the 12 Job Corps centers visited during our FY 2004 audit, we selected a
           statistical sample of 121 depreciable real property items from CATARS as of
           March 31, 2004. The value of these assets, net of accumulated depreciation, was
           $41,229,947. The auditors found that six items totaling $214,535, net of
           accumulated depreciation, were disposed or no longer in use. Additionally, the
           auditors found three buildings on CATARS that were outside the sample, that were
           either vacant or demolished. The value of these buildings, net of accumulated
           depreciation, was $1,058,525.


Report No. 22-05-001-13-001                                                                              5
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability


       The recommendation remains unresolved. To resolve the recommendation, ETA needs to
       provide a corrective action plan specifying the planned dates for implementing National
       Accounting Policies and Procedures Manual and implement the procedures so that immediate
       corrective action can be taken.

       Management’s Response

       “OFAS will work with Job Corps management to develop more efficient procedures to ensure
       that documentation regarding acquisitions, CIP projects and Job Corps center dispositions is
       received timely by the CAMO [Capitalized Asset Management Officer] for entry into CATARS.
       The strategy will be to identify current Job Corps information flows, which can be modified to
       provide the necessary documentation to OFAS while imposing the minimum cost and impact on
       Job Corps operations and personnel. OFAS is already moving aggressively to obtain the proper
       documentation for the projects currently in the construction in progress module showing costs of
       90% or more of contract budget. ETA plans to finalize and issue the procedures by December 31,
       2004.”

       Auditors’ Conclusion

       The recommendation is resolved and open pending ETA’s finalization and issuance of the
       revised procedures, and verification in the FY 2005 audit that the procedures implemented are
       effective and ensure additions and dispositions are recorded timely in DOLAR$ and CATARS.

            Procedures are implemented to ensure that sufficient descriptive details of all capitalized
            property items are obtained and corrected in CATARS for existing property, and the
            details are added to CATARS for future acquisitions.

       We found that procedures have not been developed to ensure that all descriptive details of all
       capitalized property items are obtained and corrected in CATARS for existing property and all
       future acquisitions. We also found that the condition of vague property descriptions continues to
       exist.

       For the 12 Job Corps centers visited during our FY 2004 audit, we statistically selected 121 real
       property items from the March 31, 2004, CATARS inventory. We used the CATARS description
       to attempt to verify the existence of each real property sample item. We found that 44 of the 121
       (36 percent) real property items in the sample were not adequately described which prevented the
       auditor from verifying existence. The value of these assets, net of accumulated depreciation,
       totaled $10,109,257. We provided our sample to Job Corps’ A&E contractor because they have
       detailed non-financial records on Job Corps’ center property. The A&E contractor was not able
       to provide any additional information on 25 of the 44 sampled items. The auditors were still
       unable to verify existence for some of the sampled items the A&E contractor was able to provide
       additional information.

       We also compared our sample to the site surveys performed by Job Corps’ A&E contractor. The
       surveys list and name all the buildings at the center and provide information to locate specific
       buildings. We found the CATARS was not consistent with information in the site surveys. For
       example, for the Laredo Job Corps Center, CATARS lists only one line item as “Site (Holding
       Campus)” for $5,307,176. However, according to the Job Corps’ A&E contractor site survey,
       there are 15 buildings at the Laredo Job Corps Center. In another example, we found that the
       Iroquois Job Corps Center has only three line items, two are for a septic system upgrade, and one


Report No. 22-05-001-13-001                                                                            6
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability

       is an A&E contract for $5,143. However, according to the Job Corps’ A&E contractor site
       survey, there are 19 buildings at the Iroquois Job Corps Center.

       ETA explained that some of the items that are not adequately described might be design costs for
       buildings or improvements. However, we found that procedures were not developed and
       implemented to ensure that design costs for specific buildings or improvements were associated
       with and capitalized as part of the total cost of each specific building or improvement. Design
       costs for capitalized real property should be included in the cost of the property and be
       depreciated over the estimated useful life of the property. We do not take exception to ETA
       setting up separate items for design costs, as long as the description of the asset is clear, the date
       it was placed in service is correct, and the useful life mirrors that of the property with which the
       A&E design costs are associated. This will also ensure that design costs that do not result in a
       capitalized building or improvement are not added to CATARS as a capitalized asset and
       depreciated and are instead expensed. DBFS and OFAS officials informed us that design costs
       are not always allocated to specific buildings, and they do not have a methodology to do such an
       allocation.

        The recommendation remains unresolved. To resolve the recommendation, ETA needs to
        provide a corrective action plan for developing and implementing procedures to ensure that
        sufficient descriptive details of all capitalized property items are obtained and corrected in
        CATARS for existing property, and the details are added to CATARS for future acquisitions.
        The corrective action plan needs to include the planned date for implementing the procedures.

       Management’s Response

       “OFAS is working with Job Corps management and the Job Corps A&E contractor to identify the
       CATARS items with inadequate descriptions. Resolution of this situation will require significant
       research into OFAS contract files and Job Corps A&E files and databases, and plans to complete
       this effort by September 30, 2005. Currently, OFAS is taking steps to ensure that no further
       inadequate entries are made to CATARS, including educating CAMOs and APOs [Accountable
       Property Officer] on the requirements for recording capitalized property and management review
       of CATARS entries.”

       Auditors’ Conclusion

       The recommendation remains unresolved. To resolve the recommendation, ETA’s corrective
       action plan needs to provide more specific information as to the procedures that will be
       implemented to prevent inadequately described assets from being entered into CATARS, and the
       planned dates for implementation.

           Total land costs are recorded in CATARS and allocated to the specific Job Corps center

       In response to the recommendation, ETA stated it would make certain that current and future land
       acquisitions, which meet the capitalization threshold, are entered into CATARS. ETA explained
       that in many cases real property is acquired without differentiation between buildings and land.
       Furthermore, there are also instances where land is acquired from a state or local government for
       a nominal fee. To address these aspects of land acquisition, ETA stated that it implemented a
       practice whereby Job Corps’ A&E contractor will capture and report land separately on future
       real property acquisitions. For some existing land not currently captured in CATARS, ETA
       stated it has obtained information, from Job Corps’ A&E contractor, that will support its efforts to
       ensure total land costs are reported in CATARS.


Report No. 22-05-001-13-001                                                                                7
                                                   Findings And Recommendations Identified In An
                                            Audit Of The Report On Performance And Accountability


       We found problems with ETA’s documentation supporting the land value recorded in CATARS
       and DOLAR$. ETA provided a spreadsheet compiled by Job Corps’ A&E contractor that
       showed the dollar value of land for each Job Corps center. However, the number of centers listed
       on the spreadsheet did not reconcile to the number of DOL Job Corps’ centers. Additionally,
       there were questions of how the dollar value of the land was determined. ETA has not ensured
       that all land has been properly valued and included in CATARS in accordance with the Statement
       on Federal Financial Accounting Standard (SFFAS) No. 6.

       The recommendation is resolved and open. We concurred with ETA’s corrective action plan for
       recording and allocating land in CATARS. However, the recommendation remains open until
       ETA provides support for the land values that were allocated to the Job Corps’ centers in
       accordance with SFFAS No. 6 and implements the draft policies and procedures manual as final.

       Management’s Response

       “OFAS will work with Job Corps management to correct the deficiencies in the land cost
       schedule and correct the CATARS entries as necessary by September 30, 2005.”

       Auditors’ Conclusion

       The recommendation remains resolved and open until ETA accurately records Job Corps’ land
       values in DOLAR$ and CATARS in accordance with SFFAS No. 6, and implements its draft
       policies and procedures as final.

            Procedures are implemented to ensure that property recorded in CATARS is reconciled
            monthly to property recorded in DOLAR$, and all adjustments identified in the
            reconciliation process are recorded on a timely basis.

       In response to the recommendation, ETA stated that monthly reconciliations have been performed
       using the automated report produced by CATARS and the appropriate CATARS month-end
       reports. ETA further stated that they are taking the approach consistent with the CATARS Users
       Guide for performing monthly reconciliations to identify and resolve differences between
       CATARS and DOLAR$. This process was to be implemented May 2004.

       Our FY 2004 audit disclosed the process has not been implemented. During our FY 2004 audit
       we also found that there is a $4.4 million difference in the Equipment Account between DOLAR$
       and the two subsidiary ledgers used for Job Corps’ equipment – CATARS and Job Corps’
       Electronic Property Management System (EPMS). The difference showed that DOLAR$ was
       overstated.

       Two subsidiary ledgers are used for Job Corps capitalized equipment. The EPMS is used to
       record personal property located at the Job Corps’ centers. The EPMS is maintained by Job
       Corps at its data center in Texas. CATARS is used for all other Job Corps capitalized equipment.
       In order to ensure that the EPMS balance is reflected in DOL’s accounting system, ETA has to
       obtain the balance from Job Corps and enter it into DOLAR$ as a journal entry.

       To reconcile the DOLAR$ equipment account to the subsidiary ledgers, we totaled the capitalized
       equipment balances in CATARS and the EPMS and then compared that total to the amount in the
       DOLAR$ Equipment Account. We found DOLAR$ was overstated by $4.4 million. ETA could



Report No. 22-05-001-13-001                                                                         8
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability

       not explain the cause for the difference but at the end of our fieldwork, they were still in the
       process of researching it.

       The recommendation remains unresolved. To resolve the recommendation, ETA needs to
       provide a corrective action plan which ensures that property recorded in CATARS is reconciled
       monthly to property recorded in DOLAR$, and all adjustments identified in the reconciliation
       process are recorded on a timely basis. The corrective action plan also needs to provide the
       planned implementation date.


       Management’s Response

       “Management implemented monthly reconciliations of CATARS to DOLAR$ in May 2004. The
       initial reconciliation revealed relatively small-unidentified differences, as noted by the OIG in
       their finding. Management is working to identify and resolve the individual transactions making
       up these differences, but at year-end had not completed this project. Completion of this project is
       anticipated by September 30, 2005.”

       Auditors’ Conclusion

       The recommendation is resolved and open pending completion of ETA’s project to identify and
       resolve differences in DOLAR$, CATARS, and EPMS, and verification that appropriate
       adjustments were recorded to each system as determined to be necessary.

       Management’s Overall Response to Above Findings

       “Management believes that significant progress was made in correcting these items during year-
       end work. Most of the findings relate to problems with the data flow from program management
       to OFAS, not to lack of control over the assets. While these findings indicate problems with
       accountability over real property, this property is not subject to casual misappropriation.”

       Auditors’ Conclusion

       While we agree with management that progress was made in addressing the above findings, the
       conditions reported in this finding represent significant deficiencies in the design and operation of
       internal controls over Job Corps capitalized property. These internal controls are related to
       management’s assertion that the recorded assets exist, all transactions recorded during the fiscal
       year occurred during the period; and all assets owned by the Department are included in the
       general ledger as of the Balance Sheet date. Therefore, it is important that management
       implement timely corrective action to ensure these internal controls are effectively designed,
       prescribed, and implemented.

       Capitalized Asset Property Management

       In the FY 1999 Management Advisory Comments (OIG Report No. 12-00-006-13-001), the OIG
       reported that management’s capitalized asset tracking and reporting procedures are inadequate to
       ensure that disposals of capitalized assets are reported in a timely and accurate manner, and that
       assets are adequately safeguarded against loss or theft.




Report No. 22-05-001-13-001                                                                               9
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       The OIG made the following recommendation:

            Accountable Property Officers (APOs) and Capitalized Asset Management Officers
            (CAMOs) receive adequate training in the disposal of capitalized assets.

       During the FY 2004 audit, we found that the Office of the Chief Financial Officer (OCFO)
       decided to produce a package on the requirements for disposing of capitalized assets and
       distribute it to the APOs and CAMOs.

       This recommendation remains resolved and open until the package is distributed and we review
       and analyze the documentation.

       Management’s Response

       “The OCFO is currently distributing the APO’s and CAMO’s with instructions for the disposition
       of assets. OCFO provided copies of the instructions to the OIG during the month of September
       2004.”

       Auditors’ Conclusion

       Based on information provided by management with its response, this recommendation is closed.

       In the FY 2001 Findings and Recommendations to the Chief Financial Officer (OIG Report No.
       22-02-004-13-001), the OIG made the following additional recommendations pertaining to
       capitalized property:

       We recommend that the Chief Financial Officer and the Assistant Secretary for Employment
       and Training ensure that:

            procedures specified in the DLMS are followed for documenting the disposal of an asset at
            the time it is placed out of service, transferred, donated, etc., not as a means for
            reconciling the physical inventory; and

            Accountable Property Officers and Property Management Officers follow procedures
            specified in the DLMS for determining liability for lost/missing, stolen, or damaged
            property.

       The Department is required by law to establish internal accounting and administrative controls to
       reasonably ensure that all assets are safeguarded against waste, loss, unauthorized use, and
       misappropriation (31 U.S.C. 3512 (c) (B)). When an asset is disposed of, a DL-1-55C disposal
       form is required to be completed by the APO and submitted to the CAMO for entry into
       CATARS. The disposal form should be completed at the time of disposal and indicate the date
       and method of disposal. The disposal method is indicated using one of several predefined
       disposal codes (e.g., trade-in, salvaged/scrapped, etc.).

       At the agency level, we noted the following:

       ETA

       During FY 2003, ETA stated it would implement a quarterly physical inventory by the APOs, or
       their respective designate, to ensure that property identified for disposition is done so pursuant


Report No. 22-05-001-13-001                                                                            10
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       with these procedures. ETA’s Office of Financial and Administrative Management Administrator
       will be notified of APOs that do not respond.

       ETA also stated that OFAS did perform the annual physical inventory for FY 2003.
       Electronic notification was sent to the APO about the requirement to furnish the DL-1-55C
       Disposal Forms for changes to their property inventories. ETA will continue to follow up
       with the APOs or their designees to obtain the disposal forms.

       Our review of CATARS disposals as of June 30, 2004, found that ETA did not report any
       capitalized asset disposals. We were informed by ETA that quarterly physical inventories were
       not performed and that ETA had not received any DL-1-55Cs as of September 2004. Without
       quarterly inventories and DL-1-55Cs, we were not able to determine if ETA recorded capitalized
       asset disposals timely and properly researched the reasons for disposal. As a result, both the
       recommendations, as they pertain to ETA, remain resolved and open pending our verification
       that disposals are recorded timely and processed according to DLMS requirements.

       Management’s Response

       “Management agrees that further work is necessary to ensure that property and equipment is
       properly managed and accounted for. It is anticipated that this project will be completed by
       September 30, 2005.”

       Auditors’ Conclusion

       Both recommendations remain resolved and open pending verification that disposals of
       capitalized assets are recorded timely and processed according to DLMS requirements.

       OCFO (Working Capital Fund (WCF)

       OCFO stated that the Division of Working Capital Fund Financing will reconcile on a monthly
       basis the CATARS to the DOLAR$ for WCF assets to ensure the proper recording and reporting
       of capital assets. In addition, regular contacts will be initiated with APOs and CAMOs to
       reiterate the regulatory requirements to account for capital assets. OCFO also stated that it would
       place an emphasis on assets removed from service, as well as the subsequent accounting
       transactions.

       Our review of CATARS disposals as of June 30, 2004, found that OCFO only reported one
       capitalized asset disposal. Therefore, we were not able to determine if OCFO is recording
       capitalized asset disposals timely and properly researching the reasons for disposal. As a result,
       both recommendations, as they pertain to the OCFO, remain resolved and open pending our
       verification that disposals are being recorded timely and processed according to DLMS
       requirements.

       Management’s Response

       “The OCFO in conjunction with the OASAM [Office of the Assistant Secretary for
       Administration and Management] CAMO will be having quarterly meetings with the APO’s. The
       first meeting will be conducted in Mid November.”




Report No. 22-05-001-13-001                                                                             11
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

       Auditors’ Conclusion

       Both recommendations remain resolved and open pending verification that disposals are
       recorded timely and processed according to DLMS requirements.


2.     Accounting for Grants
       Status of Prior Year Findings and Recommendations

       Grant Accounting Errors

       In the FY 1999 audit (OIG Report No. 12-00-003-13-001), the OIG identified significant errors in
       the recording of ETA's grants. The report included the following recommendation:

           We recommend that the Chief Financial Officer and the Assistant Secretary for
           Employment and Training ensure that procedures are established to ensure that errors
           made in recording grant information are identified and corrected on a timely basis. At a
           minimum, this should include review procedures for data input and utilization of exception
           reports which identify transactions with an unusual nature (such as negative cost entries).

       Over the years, ETA has implemented various actions in an attempt to alleviate grant accounting
       errors. In FY 2003, ETA issued Regional Office accounting procedures as well as Employment
       and Training Order (ETO) No. 1-03, Improving Administration of Grants within the Employment
       and Training Administration. ETO No. 1-03 clarifies the roles and responsibilities of ETA staff
       in grants administration and monitoring. In FY 2004, ETA pushed forward the interface between
       Electronic Information Management System (EIMS) and DOLAR$, in order to eliminate errors
       created in the current data transfer process. It is our understanding that EIMS is currently
       scheduled to interface to DOLAR$ in October 2004.

       Despite the efforts made by ETA, our FY 2004 audit continued to identify errors in ETA’s grants
       and contracts. Errors were noted at both the national office and regional offices. Our statistical
       sample of grants and contracts as of May 31, 2004, identified the following:

           15 out of 136 grants tested (11.0 percent) had misstated or unsupported obligation balances.
           The absolute value of these errors totaled $ 8,523,449;
           21 out of 144 grants tested (14.6 percent) had misstated or unsupported cost balances. The
           absolute value of these errors totaled $ 54,888,536; and
           9 out of 151grants tested (6.0 percent) had misstated or unsupported payment balances. The
           absolute value of these errors totaled $ 3,043,614. Of this amount, $3,028,302 related to a
           grant where the same DOLAR$ document was used for two different contracts and we were
           unable to reconcile the contract selected to the amount recorded in DOLAR$. We requested
           a reconciliation of this contract, but none was provided.

       We also noted obligation, cost and payment transactions that were not posted timely, and one
       contract for $705,741 related to improvements at a Job Corps center that should have been
       capitalized but was charged to operating expense.




Report No. 22-05-001-13-001                                                                            12
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       Additional audit procedures performed as of May 31, 2004, identified differences (in grant costs)
       between the amount recorded in EIMS and the amount recorded in DOLAR$, as follows:

                                                                 (Absolute Value)

               State Employment Security grants                   $ 124,946,343
               Workforce Investment Act (WIA) grants                 17,211,357

       In response to these findings, ETA stated the following, “ETA is addressing the various internal
       control problems . . . by centralizing payment operations, electronically interfacing EIMS to
       DOLAR$, and implementing additional preventative and detective control procedures.”

       This recommendation remains unresolved. Resolution and closure is dependent upon
       implementation of improved procedures for detecting and correcting potential grant errors at both
       the National and regional offices, completion of the EIMS interface and supporting exception
       reports, and a positive outcome for grant testing conducted during the FY 2005 audit.

       Management’s Response

       “Management believes that the implementation of the DOLAR$-EIMS cost interface will have a
       significant effect on this finding. Not only will accuracy be enhanced by eliminating a large
       number of manual entries, but the staff formerly employed in making those entries can be
       assigned to analysis and correction procedures for costs and obligations, further increasing the
       accuracy of the remaining manual entries. The interface work is currently on track for a
       November 30, 2004 implementation.”

       Auditors’ Conclusion

       This recommendation remains unresolved. Resolution and closure is dependent upon the items
       previously identified in this finding, that is, implementation of improved procedures for detecting
       and correcting potential grant errors at both the National and regional offices, completion of the
       EIMS interface and supporting exception reports, and a positive outcome for grant testing
       conducted during the FY 2005 audit.

       Delinquent Grantee Reporting

       Over the past several years, OIG audits have identified delinquent reporting on the part of ETA’s
       grantees and contractors. The FY 1999 audit (OIG Report No. 12-00-003-13-001) included the
       following recommendation:

           We recommend that the Chief Financial Officer and the Assistant Secretary for
           Employment and Training establish procedures for monitoring grantee reporting. At a
           minimum, these procedures should provide for the timely identification of delinquent cost
           reports and appropriate follow up efforts with grantees.

       In recent years, ETA has made various efforts to obtain and record delinquent cost reports from
       its grantees. In FY 2003, ETA issued delinquency notices to selected grantees, and issued
       internal grant administration procedures in ETO 1-03, Improving Administration of Grants within
       the Employment and Training Administration, which clarifies the roles and responsibilities of
       ETA staff in grants administration and monitoring. ETA also issued written regional accounting



Report No. 22-05-001-13-001                                                                             13
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       procedures that include procedures for identifying and resolving delinquent grantee reporting. In
       FY 2004, ETA developed a report to identify delinquent (zero cost) grantees.

       Regardless of the actions taken by ETA, significant reporting delinquencies were identified in the
       FY 2004 audit. The June 30, 2004, Detailed Grant Report (DGR) reflected 265 documents, with
       approximately $226 million in advances, where costs have never been recorded since the
       inception of the grant. (All of these grants were for FY 2003 or earlier, and should have costs
       recorded to offset the advances drawn by grantees.) These results are only slightly improved
       from June 2003 where the advance balances identified in this test were approximately $230
       million.

       In addition, the DGR reflected 442 documents with approximately $225 million of beginning
       advance balances (e.g., balances carried over from FY 2003), but no costs were recorded in FY
       2004. In fact, the advance balances for these 442 documents increased from $225 million at
       September 30, 2003, to approximately $349 million as of June 30, 2004.

       In response to this finding, ETA indicated that significant efforts were made in July 2004
       (subsequent to our audit analysis) to obtain missing cost reports. Management provided an
       analysis dated August 11, 2004, that reflected reduced advance balances, approximately $100
       million, which were related to grants where no costs were recorded since the inception of the
       grants. (While we were not provided with details of ETA’s analysis, we ran an independent
       analysis using the July DGR and identified that the advance balance related to grants with zero
       costs had dropped to $160 million by the end of July.) ETA’s response did not address the $349
       million of advances related to those grants that had some prior year cost but no cost reporting in
       the current fiscal year.

       We concur with management’s efforts to obtain missing cost reports and to track progress using
       the delinquent cost report. This recommendation remains resolved and open. Closure is
       dependent on evidence that management has consistently monitored and tracked grantee reporting
       throughout FY 2005, and that monitoring efforts resulted in grantee reporting that has
       substantially been brought up to date and remains timely in the current fiscal year.

       Management’s Response

       “Management believes that significant progress was made in correcting these items during year-
       end work. At Oct. 7, 2004, there were 240 documents totaling $60 million where grantees have
       not reported any costs since inception. In addition, management has included in the DOLAR$-
       EIMS interface several cost reporting exception reports which will highlight grantees with
       delinquent cost reports by quarter, alerting OFAS and program management to the situation early
       and thus focusing efforts to correct this situation.”

       Auditors’ Conclusion

       This recommendation remains resolved and open. Closure is dependent on the items previously
       identified in this finding, that is, evidence that management has consistently monitored and
       tracked grantee reporting throughout FY 2005, and that monitoring efforts resulted in grantee
       reporting that has substantially been brought up-to-date and remains timely in the current fiscal
       year.




Report No. 22-05-001-13-001                                                                             14
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

       Accounting for Workforce Investment Act Transfers

       In the FY 1999 audit (OIG Report No. 12-00-003-13-001), the OIG reported that ETA did not
       account for funds transferred within the Job Training Partnership Act (JTPA) program, even
       though funds were moved between grants and appropriation accounts. While the JTPA program
       has since been closed, a similar situation currently exists with the WIA program. Under WIA,
       grantees are allowed to transfer funds between the adult and dislocated worker programs. These
       transfers are captured in EIMS but are not recorded in DOLAR$. Rather, the funds are recorded
       in the general ledger and reported to Treasury as if they were expended for the original program
       component.

       The FY 1999 report included the following recommendation:

       We recommend that the Chief Financial Officer and the Assistant Secretary of Employment
       and Training ensure that controls are implemented over JTPA transfers or similar provisions
       of successor programs (such as the Workforce Investment Act), including:

           procedures to account for JTPA (WIA) transfers, which ensure that transfers between
           appropriation accounts are accounted for in accordance with OMB guidance and that all
           program costs are accurately recorded for each program.

       In FY 2003, ETA referred the matter to OMB for resolution, and we independently submitted all
       supporting documentation to OMB at their request. To date, OMB has not provided a response.
       This recommendation remains unresolved pending receipt and analysis of OMB’s opinion
       regarding this issue, and on implementation of appropriate corrective actions as determined to be
       necessary based on that analysis.

       Management’s Response

       “Management has no further comment.”

       Auditors’ Conclusion

       Our audit conclusion remains unchanged.


3.     Unemployment Trust Fund
       Status of Prior Year Finding and Recommendation

       Unemployment Insurance Benefit Overpayments

       In the FY 2001 audit (OIG Report No. 22-02-004-13-001), the OIG reported certain deficiencies
       in the internal controls over Unemployment Insurance benefit payments. The Unemployment
       Insurance (UI) overpayment data collected by the Benefit Accuracy Measurement (BAM) unit
       reflected little improvement in the UI overpayment rates over the past several years. The
       overpayment rate has remained relatively flat since 1989 at about 8.5 percent. The report also
       noted that the BAM data reflect significantly higher overpayments than those established and
       reported by the states’ Benefit Payment Control (BPC) system, $2.3 billion versus $669 million,
       respectively. According to management, a significant portion of the $2.3 billion in overpayments



Report No. 22-05-001-13-001                                                                           15
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

       represents instances which are either nonrecoverable or are not detectable given current operating
       procedures. The OIG made four recommendations, of which three were closed. The open
       recommendation follows:

           We recommend that the Chief Financial Officer and the Assistant Secretary for
           Employment and Training ensure that the Office of Workforce Security (OWS)
           management develop a written plan to utilize the data produced by the BAM unit as the
           impetus for improving internal controls over the benefit payment process. Specifically, the
           plan should address:

           -   Procedures to analyze overpayment rates for purposes of identifying statistically valid
               improvement, or lack thereof, in overpayment rates at the national and state levels.

       In response to this finding, management provided the OIG with a detailed corrective action plan
       that described planned changes to the methods in which BAM and BPC UI overpayments would
       be measured and compared, as well as proposed Government Performance and Results Act
       (GPRA) measures and goals. In FY 2003, management prepared detailed analyses of 2002 UI
       overpayment data and provided additional information as to the GPRA goal implemented to
       measure the states’ detection of UI benefit overpayments. FY 2004 improvements include
       increased use by the states of the State Directory of New Hires and passage of a new law, which
       allows state UI agencies access to the National Directory of New Hires (P.L. 108-295).

       Despite management’s efforts, the actual UI benefit overpayment rate continues to climb. The UI
       benefit overpayment rates for calendar years (CY) 2003, 2002 and 2001 were 9.3 percent, 9.1
       percent, and 8.2 percent, respectively. In addition, the Operational Overpayment rate measured
       for the GPRA goal remained stable at 5.0 percent for CY 2003 and 2002.

       For these reasons, this recommendation remains resolved and open pending evidence that the
       corrective actions taken by management have lowered the rate of benefit overpayments. We
       concur that the recent actions taken by management should have a positive impact on the rate of
       overpayments, and will reevaluate this recommendation in our FY 2005 audit.

       Management’s Response

       “The Employment and Training Administration (ETA) has seen significant results from its efforts
       to promote states’ to use state directories of new hires to detect and prevent the largest cause of
       overpayments, those due to claimants who continue to claim benefits despite having returned to
       work. States received $4.7 million in FY 2003 to implement and/or enhance the use of their new
       hires directories. ETA estimates that savings from use of this tool—largely, prevention of
       subsequent overpayments—increased from approximately $55 million in CY 2002 to $74 million
       in CY 2003. In addition, the GPRA overpayment measure rose significantly from 57% in FY
       2003 to 60.7% for the 12 months ending June 30, 2004, indicating that a larger portion of
       potentially recoverable overpayments is being established for recovery. We expect continued
       positive results as states increase the use of the tools provided. ETA looks forward to the OIG’s
       review of progress made so that the finding may be closed.”

       Auditors’ Conclusion

       This recommendation remains resolved and open pending evidence that the corrective actions
       taken by management have lowered the rate of benefit overpayments. We will reevaluate this



Report No. 22-05-001-13-001                                                                            16
                                                            Findings And Recommendations Identified In An
                                                     Audit Of The Report On Performance And Accountability

           recommendation pending an analysis of more recent data relative to UI benefit overpayment rates
           that will be conducted in our FY 2005 audit.


4.         Federal Employees’ Compensation Act (FECA)
           Current Year Findings and Recommendations

           Errors in Medical Bill Processing

           The Employment Standards Administration’s (ESA) Office of Workers’ Compensation Programs
           (OWCP) has contracted with a third party, Affiliated Computer Services Inc. (ACS) to perform
           medical bill processing for FECA claimants. ACS began processing medical bills in September
           2003.

           In our FY 2004 audit, our initial testing consisted of a statistical sample of 203 medical bills paid
           by the contractor during the period October 1, 2003, to March 31, 2004. Of these 203 bills, we
           found 22 bills (10.8 percent) were not paid the correct amount, including 14 overpayments
           totaling $63,337 and 8 underpayments totaling $31,380. The types of errors we found are
           summarized as follows:

                                Keying/scanning error                                                1
                                CCR1 fee schedule used instead of DRG2 formula                       6
                                Line items denied improperly                                         4
                                Documentation not provided                                           2
                                Duplicate payments                                                   2
                                Other fee schedule calculations                                      7
                                Total                                                               22

           Two of the sample items were duplicate payments and represent $20,846 of the $63,337 of
           overpayment errors found in the statistical sample. Three of the sample items were not duplicate
           payments, but we found duplicate payments related to those items totaling $182,064 in additional
           overpayment errors. One bill was paid four times between March and June 2004 representing
           $127,956 of the total $182,064 errors found. As a result, total overpayments identified in both
           our original sample and the additional duplicates found totaled $245,401 ($63,337 + $182,064).
           Based on the error rates in these initial results, we selected an additional sample of 155 items for
           the same sampling period. Of these 155 items, we found 8 errors that resulted in a net
           overpayment of $826, plus two additional duplicate payments totaling $33,072, which is
           consistent with the test results from our initial statistical sample. The error rate from the initial
           sample and the additional sample is 8.4 percent (30 total errors in 358 cases).

           Both prior to and in response to these results management took steps to correct some of the
           weaknesses identified. To test the effectiveness of these corrective actions, we then increased our
           sample to cover April 1, 2004, to June 30, 2004, and tested an additional 47 items from this
           period. We found only one $71 error relating to a fee schedule calculation which indicates the
           corrective actions taken by management resulted in a reduction in payment errors in the third
           quarter of the fiscal year.

1
    Cost to Charge Ratio tables (used to calculate reimbursement based on the state where services were provided)
2
    Diagnostic-related group (method of calculating reimbursement based on individual hospital specific cost index)


Report No. 22-05-001-13-001                                                                                           17
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability


       Because OWCP did not have a quality assurance and internal audit plan in place prior to
       implementation of the new system, OWCP encountered a number of problems at start up of the
       Medical Bill Processing system, including miscommunication with ACS on how to handle certain
       types of bills, difficulty in distinguishing between regular outpatient bills and bills from
       Ambulatory Surgical Centers, bill keying and scanning errors, and an incorrectly set duplicate
       pay edit.

       The Joint Financial Management Improvement Program (JFMIP) Benefit System Requirements
       state that benefit systems must incorporate appropriate controls to ensure the accuracy of data
       entry, completeness, and consistency of transaction processing and reporting. In addition, OMB
       Circular A-127 states that internal controls over data entry, transaction processing and reporting
       shall be applied consistently throughout the system to ensure the validity of information and
       protection of Federal government resources.

       Without adequate controls over the processing of medical bill payments, OWCP cannot ensure
       that amounts paid are correctly calculated in accordance with the fee schedules. As a result,
       medical bill providers have been overpaid and underpaid, resulting in the medical benefit expense
       being misstated. These misstatements have a direct effect on the benefit expense chargebacks to
       other Federal agencies and also effect to a lesser degree the actuarial liability calculation. Finally,
       these misstatements result in incorrect amounts being recorded in the DOLAR$ general ledger.

       Management has indicated it has taken the following steps to address these conditions:

           increased the automation of the fee schedule process for Ambulatory Surgical Center (ASC)
           bills. The program will also implement an automated fee calculation for ASC bills in the first
           quarter of FY 2005;
           changed the settings to suspend or deny inpatient bills with no Medicare number. This
           change was implemented in late March 2004;
           improved the training provided to OWCP contractor’s staff, made modifications to the bill
           input screens, and increased quality assurance reviews of scanned documents early in 2004;
           set the duplicate payment edit to suspend potential duplicate payments in March; then in May
           changed the edit to deny instead of suspend potential duplicate payments;
           initiated collection actions on all overpayments identified in the audit and planned additional
           training for ACS staff. An internal audit plan is being developed with a planned
           implementation in October, 2004; and
           eliminated duplicate provider identification numbers and edits have been changed to prevent
           payments on old terminated provider identification numbers.

       Recommendations

       1. We recommend that the Chief Financial Officer ensure that the Assistant Secretary for
          Employment Standards fully implements corrective actions that have been proposed or
          initiated by OWCP, and that the accounting records are adjusted to reflect identified
          misstatements.

       2. We recommend that the Chief Financial Officer and the Assistant Secretary for
          Employment Standards ensure that OWCP establishes a policy to develop a quality
          assurance plan prior to migration to any significant system or system change.




Report No. 22-05-001-13-001                                                                                18
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability

       Management’s Response

       “1. As noted in our prior response, corrective actions have been completed or initiated. Full
           implementation is expected in FY 05. As collections are made on the overpayments, they are
           credited to the appropriate agency. To date, roughly 50% of the dollar amount of
           overpayments identified in the audit has been collected and credited to the appropriate
           account. OWCP will follow Federal debt collection procedures for amounts not recovered.

       2. OWCP will issue a policy regarding quality assurance plans for IT [Information Technology]
          system migrations and changes by March 31, 2005.”

       Auditors’ Conclusion

       The first recommendation is resolved and open, pending effective implementation of these
       corrective actions and a positive outcome from our review of the medical bill system in the FY
       2005 audit. In November 2004, OWCP issued a quality assurance policy regarding IT system
       changes and migration. Based upon our review of this policy, the second recommendation is
       closed.

       Medical Bill Receivables

       We noted during our FY 2004 audit that OWCP and ACS have not implemented a system to track
       and record medical bill overpayments (receivables). In addition to the $278,473 of medical bill
       overpayments previously discussed in this report ($245,401 and $33,072), OWCP and ACS have
       identified overpayments during the course of the fiscal year, and ACS has set up an ad-hoc
       method of tracking and collecting these overpayments.

       JFMIP Benefit System Requirements, issued in September 2001, lists Recovery Receivable
       Management as one of the nine major functions of a Federal benefit system. The Recovery
       Receivable Management requirements include mandatory requirements relating to the
       establishment, servicing, collection, offset, and funds control related to receivables. In addition,
       Federal accounting standards require that agencies recognize a receivable when a Federal entity
       establishes a claim to cash or other assets against other entities.

       Management has indicated the design of the new medical bill processing system included the
       development of a mechanism for establishing receivables in order to track and recoup benefits
       overpayments. The nightly electronic feed to record the overpayment information was developed
       as a feature of the medical bill system; however, a delay in the implementation of the new case
       management system resulted in a delay in the implementation of this feature. Testing of this
       feature is currently underway and implementation is expected in the first quarter of FY 2005. In
       the interim, system errors similar to the problems identified with inpatient bill duplicates will be
       tracked separately by OWCP and ACS.

       Without an adequate receivable recovery system, collection of receivables cannot be effectively
       managed and monitored, which could result in the failure to collect recoverable amounts. The
       medical bill payment system is not in compliance with one of the mandatory functions of JFMIP
       Benefit Systems requirements. In addition, these receivables are not being captured in the
       Department’s general ledger, resulting in an understatement of accounts receivable.




Report No. 22-05-001-13-001                                                                               19
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

       Recommendation

       We recommend that the Chief Financial Officer ensure that the Assistant Secretary for
       Employment Standards develops and implements the receivable system for the
       identification, tracking, and reporting of medical benefit overpayments in accordance with
       JFMIP requirements and ensure that the accounting records are adjusted to reflect all
       current receivables.

       Management’s Response

       “The new case management system in iFECS includes the receivable system which was
       developed in accordance with JFMIP requirements. The new system will be deployed in FY
       2005 and current receivables will be reflected.”

       Auditors’ Conclusion

       This finding is resolved and open, pending effective implementation of this new system and a
       positive outcome from our review of this system in the FY 2005 audit.

       Status of Prior Year Finding and Recommendation

       Lack of Current Medical Evidence

        In the FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that ESA’s Office
        of Workers’ Compensation Programs (OWCP) did not have effective controls to ensure Claims
        Examiners (CEs) request and receive current medical evidence timely, in support of FECA
        medical benefit payments. The process relied upon the ad-hoc tracking systems utilized by
        individual CEs in each of the District offices to ensure compliance. The lack of current medical
        evidence appeared to be due to procedural failure by OWCP rather than claimant
        nonresponsiveness.

        Because OWCP staff did not follow its procedures, they could not take steps to suspend or
        terminate benefits if the medical evidence did not support continuing eligibility. Without
        adequate procedures for obtaining and reviewing current medical evidence, the risk of improper
        payments increases.

       In the FY 2003 audit report, we made the following recommendation:

            The Chief Financial Officer ensure that the Assistant Secretary for Employment
            Standards develops and implements effective controls (e.g. automated procedures)
            that will ensure Claims Examiners obtain and review current medical evidence as
            required by FECA program policy.

        In our FY 2004 audit testing, of the 159 cases in our statistical sample that required current
        medical evidence, we found 18 cases (11 percent) where the CE did not send out a request for
        medical evidence or did not follow up with a second request if a response was not received. In
        addition, in a nonstatistical sample of 50 cases where compensation was paid but there were no
        medical bills paid in the past 2 years, we found 10 of these cases also did not have current
        medical evidence (20 percent). These errors are consistent with the results of our FY 2003
        testing.



Report No. 22-05-001-13-001                                                                           20
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

        In response to our FY 2003 report, Management submitted a corrective action plan with
        timeframes for completion. The corrective action plan includes the implementation of a new
        automated system, which includes a periodic entitlement review (PER) application that indicates
        the absence of current medical evidence in the file. This will then update the CE task and
        reminder lists through the Workload Organization Window (WOW) application. Supervisors
        will be able to sort the reminding lists to identify overdue tasks. This system is scheduled to be
        tested and implemented in December 2004.

        This finding is resolved and open, pending the effective implementation of this automated
        system and our review in the FY 2005 audit.

        Management’s Response

        “Management agrees with this position.”

        Auditor’s Conclusion

        This finding remains resolved and open, pending the effective implementation of the automated
        system and a positive outcome from our review of this system in the FY 2005 audit.


5.     Procurement

       Current Year Finding and Recommendation

       OASAM’s Procurement of Services and Supplies Lacks Documentation

       OASAM’s Procurement office processed approximately $296 million of the $622 million (48
       percent) of new FY 2004 procurements for supplies and services. We judgmentally selected 10
       procurement files for review that had activity during the fiscal year, and found that four of the
       files lacked sufficient documentation and were poorly organized. As a result, management was
       not able to demonstrate compliance with the sections of the Federal Acquisition Regulation
       (FAR) pertaining to contract competition for three contracts. Also, management could not
       demonstrate compliance with Federal Appropriations Law for one contract.

       Four of the 10 files did not contain supporting documentation evidencing how key procurement
       decisions were made or how the contract was competed, as required by FAR 8.404 (b) (2), FAR
       8.405-6 (if contract was made after July 19, 2004) and OMB Circulars No. A-123 and A-130, that
       provides government wide standards for proper record and documentation maintenance. OMB
       Circular No. A-123 concerning “Recording and Documentation” states, “The documentation for
       transactions, management controls, and other significant events must be clear and readily
       available for examination.”

            For the first procurement with a cumulative value of $10.3 million, the agency could not
            document the original scope or that modifications from July 1999 though February 2004 did
            not exceed the original scope. The initial award contained language indicating Y2K services
            valued at $193,029 were to be performed. However, OASAM modified the contract 33
            times, and added over $10 million to the contract. The last contract modification was for
            $783,134, extending the period of performance through July 2004. Beginning with the
            second modification, the contract was amended to include Continuation of Government and


Report No. 22-05-001-13-001                                                                             21
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

            Continuation of Government Operations services. In addition, the file did not contain
            documentation that at least three schedule contractors were considered. FAR 8.404 (b) (2)
            states:

               “(b) Ordering procedures for optional use schedules
               (2) Orders exceeding the micro-purchase threshold but not exceeding the maximum order
               threshold. Place orders with the schedule contractor that can provide the supply or service
               that represents the best value. Before placing an order, consider reasonably available
               information about the supply or service offered under MAS contracts by using the GSA
               Advantage! on-line shopping service, or by reviewing the catalogs or pricelists of at least
               three schedule contractors.”

            In the second procurement, we found a Blanket Purchase Agreement (BPA) with multiple
            holders where the procurement file did not have evidence the purchase was competed. FAR
            8.405-3(b)2 states:

               “Multiple BPAs. If ordering activity establishes multiple BPAs, before placing an order
               exceeding micro-purchase threshold, the ordering shall “Forward the requirements, or
               statement of work and the evaluation criteria, to an appropriate additional number of BPA
               holders . . . and place the order with the BPA holder that represents the best value”

           This contract was originally awarded to assist the Department of Labor and OCFO in
           verification and processing of employee tax documents, financial statements and The
           Improper Payments Information Act of 2002. The scope was later expanded to assist
           management with internal audit services and system operation maintenance. The rationale
           for expanding the scope of the work without providing other BPA holders the opportunity to
           bid on the work was not in the file.

            In the third procurement, the contract file did not have any preaward documents or a task
            order with the contracting officer’s signature approving the procurement.

            In the fourth procurement, the file did not include the rationale for using FY 2004
            appropriations for FY 2005 services. The contractor was awarded a task order modification
            effective August 31, 2004 for engineering services. However, the new services would not be
            performed until the following fiscal year. When considering against which year’s
            appropriation an obligation should be made, a distinction between severable and non-
            severable services must be made. One of the fundamental principles of appropriations law is
            the bona fide needs rule. A fiscal year’s appropriation may only be obligated to meet
            legitimate needs in the fiscal year for which the appropriation is made. According to
            Principles of Federal Appropriations Law, a severable contract for services, “where the
            services are continuing and recurring in nature, the contract is severable and the services
            must be charged to the fiscal year(s) in which they are rendered.”

            The task order was awarded for new services that were continuing and recurring in nature,
            and should have been considered severable. Performance of these services did not begin in
            FY 2004 and DOL will not realize a benefit until such time as the services are provided
            (October 1, 2004 through December 31, 2004). The file did not include a rationale for using
            FY 2004 appropriations. Therefore, we conclude that this task order modification
            improperly obligated FY 2004 funding and violated the bona fide needs rule pursuant to 31
            U.S.C. 1502 (a).



Report No. 22-05-001-13-001                                                                             22
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

       The reasons for the lack of compliance with procurement policies and procedures were difficult to
       ascertain due to the change of procurement management and staff within OASAM. However,
       based on the condition of the files and the lack of critical procurement documentation, it was
       clear that files were not being maintained in accordance with existing procurement policies and
       procedures.

       OASAM has recently changed procurement personnel and is in the process of adopting and
       implementing new policies and procedures which they believe will ensure compliance with the
       FAR and DLMS and will improve record maintenance over this important function. Management
       provided various documents throughout the course of our audit as evidence that corrective actions
       have already been initiated, such as training plans, compliance forms, procurement checklists, etc.

       Recommendations

       We recommend that the Chief Financial Officer and the Assistant Secretary for
       Administration and Management:

       1. Ensure completion of policies that are currently being implemented to train staff,
          improve record maintenance, and establish consistent procurement practices designed
          to promote a better understanding and compliance with FAR and DLMS policies and
          procedures.

       2. Ensure development of a monitoring process to ensure compliance with FAR and
          DLMS requirements.

       3. Analyze FY 2004 obligations to determine the extent to which funds were obligated in
          the wrong year and takes necessary action to obligate the correct year.

        Management’s Response (OASAM)

        Recommendation 1

        “In its November 8, 2004 draft finding and recommendation, the OIG noted that OASAM
        recently changed procurement personnel and is in the process of adopting and implementing
        new policies and procedures to ensure compliance with the FAR and DLMS, as well as
        improve record maintenance. The new management team in the OASAM Office of
        Procurement Services (OPS) was credited with supplying various documents throughout the
        course of the OIG's audit, providing evidence that corrective actions have already been
        initiated, such as training plans, compliance forms, procurement checklists, etc.

        Continuing on this course, OASAM is addressing the OIG's recommendations as follows:

        Training
              Seven knowledgeable and properly trained contract support personnel have been added
              to OPS to assist in procurement data input, file organization, and procurement specialist
              support.
              One senior contract specialist has been hired and three additional contract specialists
              will be recruited by the end of the 2°d Quarter of FY 2005, all possessing skills current
              with the Acquisition Workforce Improvement Act (AWIA) standards of training and
              education for the GS-1102 Contract Specialist occupational series.


Report No. 22-05-001-13-001                                                                               23
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

              Existing OPS staff will complete training in FY 2005 consistent with AWIA standards,
          Record Maintenance
              Contract files are being reviewed to remove unnecessary items and to ensure that they
              contain the required documents in an organized manner, This work is expected to be
              completed by the 2"d Quarter of FY 2005.
              FY 2005 files are being reviewed to ensure the contract specialists are including the
              regulatory-required documents. A separate filing system has been set up for FY 2005
              awards to segregate them from the older files, until such time as the older files are sorted
              and properly organized.
              OPS staff has been instructed to fill in the Electronic Procurement System (EPS) required
              fields correctly so the automated tracking system will be a viable record keeping and
              management tool.
              The OASAM Assistant Secretary will issue guidance and direction to Agency Heads and
              contracting officers in the 1st Quarter of FY 2005 about the need to fill in the required EPS
              fields to initiate procurement actions.
          Consistent Procurement Practices
              Standard Operating Procedures (SOPs) for OPS Staff are being prepared and are for
              completion by the 2°d Quarter of FY 2005.
              SOP’s will be supplemented by additional internal OPS checklists, review sheets and EPS,
              milestones, to be completed by the 3rd Quarter of FY 2005.

       Recommendation 2

       OASAM OPS management has substantially increased oversight and monitoring of procurement
       activities. Standard checklists are now in use to check conformance with FAR and DLMS
       requirements, prior to approving and executing procurement actions.

       Recommendation 3

       This issue was raised to the attention of the OPS Director during the course of the audit and
       corrective action was promptly initiated. Working with the client agency, it was determined that
       contractor performance did begin in FY 2004, thus making the obligation of FY 2004 funds
       permissible and in accordance with appropriations law. The contract file has been updated
       accordingly to document the correct performance period for the contract.

       A review of other actions handled by OPS staff involved with this error has resulted in one
       additional procurement action being modified to reflect a correction to the period of performance.
       The contract file has been updated accordingly.

       On an ongoing basis, the correct use of funding is being assessed by the funds certifier, the
       contracting officer, and the disbursement officer. Through this process, any additional
       discrepancies will be identified by end of 2"d Quarter of 2005 and appropriate corrective action
       taken before disbursement of funds.




Report No. 22-05-001-13-001                                                                              24
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

       Based on the forgoing, OASAM considers recommendations 2 resolved and ready to be closed,
       pending OIG confirmation. Recommendations 1 and 3 are considered resolved and open, with
       closure dependent upon completing the tasks outlined in our response and confirmation by the
       OIG.”

        Management’s Response (OCFO)

        “We have two additional comments. First, the portion of the finding relating to Blanket Purchase
        Agreement (BPA) is not consistent with our understanding of the intent of these BPAs. We will
        work with OASAM in the time specified in their response to address this issue. Second,
        consistent with other similar recommendations, we believe that the wording of this
        recommendation should be “We recommend that the Office of the Chief Financial Officer and
        the Assistant Secretary for Administration and Management…”

        Auditors’ Conclusion

        Based on the corrective actions described by management, these recommendations are
        considered resolved and open. In the FY 2005 audit, we will assess the progress made by
        management in implementing the planned corrective actions, and will evaluate the effectiveness
        of such actions with our review of procurement files. Closure is dependent upon a positive
        outcome from that evaluation.


6.     Managerial Cost Accounting

       Status of Prior Year Findings and Recommendations

       Implementation of Managerial Cost Accounting

       In the FY 2002 audit (Report No. 22-03-003-13-001), the Office of Inspector General (OIG)
       reported that DOL was not in compliance with the requirements for managerial cost accounting
       (MCA) contained in Statement of Federal Financial Accounting Standards (SFFAS) No. 4.
       Specifically, DOL had not defined outputs for its operating programs nor developed the capability
       to routinely report the cost of outputs at the operating program and activity levels. Further, DOL
       did not adequately link cost information to performance measures at the operating program level
       for use in managing program operations on a routine basis or use managerial cost information for
       purposes of performance measurement, planning, budgeting or forecasting.

       The FY 2002 report included the following recommendation:

           We recommend that the Chief Financial Officer ensure the full implementation of the
           comprehensive Department-wide plan by January 28, 2006.

       In response to this finding, management developed a comprehensive plan to implement a
       Department-wide MCA system that complies with the requirements of SFFAS No. 4. As of the
       end of FY 2004, the implementation project directed by OCFO, with significant cooperation of
       agency personnel, has led to the successful development of cost models for substantially all of
       DOL’s agencies and their major programs. OCFO recently certified the MCA system for
       processing and completed installation of the cost accounting software throughout each of the
       program agencies. In the near future, OCFO indicates that it will complete cost model


Report No. 22-05-001-13-001                                                                           25
                                                   Findings And Recommendations Identified In An
                                            Audit Of The Report On Performance And Accountability

       documentation and provide final training to agency personnel. Management projects that all cost
       models will be updated with FY 2004 data and be operational during the second quarter of FY
       2005. This recommendation is resolved and open. Closure is dependent upon full operation and
       utilization of the MCA systems by the program agencies, as designed and presented to the OIG in
       response to this finding.

       Management’s Response

       “No further comments.”

       Auditors’ Conclusion

       Our audit conclusion remains unchanged.




Report No. 22-05-001-13-001                                                                        26
Management Advisory Comments
                                                       CFO FINDINGS AND RECOMMENDATIONS


1.     Job Corps Program
       Status of Prior Year Finding and Recommendation

       Unclaimed Student Checks Noted at Job Corps Data Center

       In the FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that each year, a
       significant number of Job Corps student payroll checks are returned to the Job Corps Data Center
       (JCDC) unpaid. A total of 109,251 unpaid checks were returned to the JCDC from December
       1995 through November 2002. These checks amounted to $8,651,815. During the same period,
       an additional 30,722 unclaimed checks (in the amount of $2,314,083) were not returned to the
       JCDC but were never cashed by the students. In total, $10,965,899 is owed to Job Corps students
       for readjustment and/or transition allowances earned during the course of their participation in
       Job Corps.

       The FY 2003 audit report included the following recommendation:

           We recommend that the Chief Financial Officer ensure that the Office of Job Corps
           identify the causes for checks being returned and address these causes by strengthening
           current procedures to ensure that students receive their final checks, and that the number
           of unclaimed checks is reduced.

       In response to the recommendation, Job Corps stated that as of February 2004, the Unclaimed
       Pay has been reduced to $9.7 million. Job Corps also stated that it took several actions to
       continue reducing this amount, which included adding an application function allowing career
       transition service (CTS) providers to: (1) query students currently on their case load for
       outstanding check information; (2) perform reviews of students with outstanding checks; and (3)
       conduct follow-up contacts. Additionally, Job Corps stated it was mailing notifications to
       students with outstanding checks and sending bulk case-notes to CTS providers for follow-up.

       During our FY 2004 audit work, Job Corps stated it is continuing to take action to reduce the
       amount of returned Job Corps student payroll checks. Job Corps informed us that it categorized
       the checks based on the dollar amount and produced a series of reports that were tailored to the
       appropriate Job Corps staff for follow-up. Additionally, Job Corps stated that the JCDC is
       working with the CTS providers to locate the students and take the appropriate steps to reissue a
       check to those students.

       In order to reduce unclaimed checks, Job Corps stated that the JCDC provided an additional
       reporting mechanism for the CTS providers. These reporting mechanisms assist the CTS
       providers in fulfilling their contractual obligations of ensuring that students receive their final
       pay. The CTS providers have the ability to log into the computer system and view the returned
       checks information for their student base.

       Also, Job Corps is working with the OCFO to set up a pilot program on student debit cards. Job
       Corps stated that this will reduce the problem caused by outdated addresses for students when
       they leave Job Corps. Job Corps stated it has requested the CFO begin the pilot program by
       September 30, 2004.

       It is Job Corps’ position that evidence of the success of corrective actions will be reflected as a
       decrease in the amount of unclaimed student checks.


Report No. 22-05-001-13-001                                                                                  27
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability


        This recommendation is resolved and open. Although we found that the JCDC’s February 2004
        Statement of Position supports the reduction of Unclaimed Pay from nearly $11 million to $9.7
        million, we will analyze the activity next year to determine if there is a downward trend in
        unclaimed students check that can be attributed to the action taken by Job Corps.

        Management’s Response

        “ETA looks forward to OIG’s review of progress made so that the finding may be closed.”

        Auditors’ Conclusion

        This recommendation remains resolved and open pending our analysis of FY 2005 activity to
        determine if there is a downward trend in unclaimed students checks that can be attributed to the
        actions taken by Job Corps.


2.      Accounting for Grants
        Status of Prior Year Findings and Recommendations

     a. ETA Grant Closeout

        In the FY 1996 audit report (OIG Report No. 12-97-005-13-001), the OIG reported that ETA did
        not have an effective system to track grants and contracts in the closeout process or identify the
        grants that should be closed. Additionally, the closeout process was very untimely. In FY 2000,
        the responsibility for closing ETA grants was moved to the Office of Grants and Contracts
        Management. Since that time the Closeout Unit has improved the grant closeout process and
        reduced the inventory of grants in closeout. As of the FY 2003 audit report, the recommendation
        was resolved and open, pending improvements in the length of time for processing grants and
        contracts through closeout.

        The FY 1996 audit report included the following recommendation:

            We recommend that the Chief Financial Officer and the Assistant Secretary for
            Employment and Training ensure that procedures are established to ensure that the
            regulatory time requirement for submitting all financial, performance, and other required
            documents within 90 days after the end of the grant is met by the grantee or contractor and
            that grants are closed out in a timely manner, i.e., 1 year or less.

        In recent years, management has taken many actions to improve the closeout process and to
        shorten the timeframe for closing grants and contracts. The backlog of grants and contracts
        pending closeout has been reduced from over 2,300 documents as of September 30, 1999, to
        around 800 documents as of June 30, 2004.

        Nevertheless, the length of time to close a grant is not yet consistent with departmental policy,
        which requires that grants and contracts be closed within one year of completion.




Report No. 22-05-001-13-001                                                                                 28
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       We performed an analysis of the grants and contracts closed during FY 2004 (as of June 30,
       2004), and noted the following:

                    Grants closed during FY 2004                               1,144
                    Expiration date not listed                                  (78)
                    Grants analyzed                                            1,066
                    Grants closed within one year after expiration               505
                    Grants closed later than one year after expiration           561

                    Percent of grants closed later than one year              52.6%
                    Average length of time to close                        656 days


       This recommendation remains resolved and open. Closure is dependent upon evidence that
       grants and contracts are closed within the required timeframes, as determined in our FY 2005
       audit.

       Management’s Response

       “ETA concurs with the fact that we are not closing the majority of our grants, agreements, or
       contracts within 180 days or within one year of their expiration date. Employment and Training
       Order (ETO) No. 1-91 establishes the 180-day deadline for grants and cooperative agreements to
       State and local governments. This order does not apply to contracts or nongovernmental grants.
       Therefore, the 95 contracts should only be measured against the timeframes listed in the Federal
       Acquisition Regulation (FAR) at Section 4.804-1, or the Department of Labor Manual Series
       (DLMS) 800 Chapter 877 (36 months for contracts). These regulations are predicated on the
       requirement for a final audit of the company’s indirect cost rates. Since the time that the Single
       Audit Act was implemented, a cognizant auditor may not review a company for three years or
       more (and may take longer to negotiate a final rate agreement). The 475 nongovernmental grants
       listed in your report should only be measured against the timeframes in the Department of Labor
       Manual Series (DLMS) 800 Chapter 877 (1 year for nongovernmental grants), which are subject
       to the same delays as the contracts.

       The closeout unit is in the process of revising ETO No. 1-91 and establishing closeout timeframes
       in-line with the FAR and the DLMS. The revised order should be completed in Fiscal Year 2005
       and will list the following timeframes for closing grants, agreements and contracts:

       a. Firm fixed-price contracts -- 6 calendar months from the expiration or termination (except for
       contracts for automatic data processing (ADP));

       b. All other contracts -- 36 calendar months from the expiration or termination or within 30 days
       after receiving final indirect cost rates;

       c. Grants and agreements -- 12 calendar months from the expiration or termination to closeout
       grants.

       ETA is taking other corrective action measures to correct the untimely closeout of
       grants/agreements/ contracts. This corrective action plan was provided to the auditors in the FY
       2004 Statement of Facts for this recommendation.”



Report No. 22-05-001-13-001                                                                            29
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       Auditors’ Conclusion

       Our draft report identified the large percentage of grants and contracts closed in FY 2004 that did
       not comply with DLMS guidelines requiring closure within one year after the grant expiration
       date. We did not report exceptions based on a 180-day criteria. However, we agree with
       management that certain grants with state and local governments are subject to regulations that
       require grantees to submit final cost reports within 90 days after grant expiration, and granting
       agencies to make final upward or downward adjustments within 90 days after the final report is
       received. We encourage management to ensure that any directive issued in FY 2005 is not only
       in line with the DLMS and FAR, but also is compliant with the 180-day criteria and all other
       applicable closeout regulations. This recommendation remains resolved and open. We will
       evaluate the impact of management’s closeout directive and the timeliness of grant closeout in
       our FY 2005 audit. Closure is dependent upon a positive outcome from that evaluation.

   b. Tracking Grant Closeout

       In the FY 2001 audit report (OIG Report No. 22-01-006-13-001), the OIG reported that DOL’s
       granting agencies need a means by which they can track, in DOLAR$, whether or not a grant has
       been closed. Currently, it is difficult for granting agencies to identify grants and contracts that
       have not yet been submitted for closure. In addition, there are no controls to prevent transactions
       from being posted in DOLAR$ after the grant has been closed and received final certification,
       and grants can be archived from DOLAR$ without consideration of whether or not the grant has
       been closed. There are thousands of grant and contract documents recorded in DOLAR$, and the
       granting agencies need an efficient means of identifying open versus closed grants.

       The FY 2001 report included the following recommendation:

           We recommend that the Chief Financial Officer work with the granting agencies to
           develop a method, using DOLAR$, that will provide the agencies with the necessary
           information for closed versus open grants, would restrict access to closed grants, and
           would ensure that grants are not archived from DOLAR$ prior to grant closure.

       No actions have been taken by management regarding this recommendation; however, the OCFO
       has indicated that this recommendation will be considered in the functional requirements analysis
       for the new accounting system that will eventually replace DOLAR$. We were informed that the
       new accounting system is scheduled for implementation in FY 2006.

       We will evaluate relevant portions of the functional analysis referred to by management, at the
       time it becomes available. However, this recommendation remains unresolved pending
       implementation of procedures for interim resolution.

       Management’s Response

       “We are currently working on the implementation of the ORACLE accounting system. The
       OCFO will be addressing the OIG recommendation with the implementation team and will
       provide the OIG an update by March 31, 2005.”

       Auditors’ Conclusion

       This recommendation remains unresolved pending appropriate plans for corrective action.



Report No. 22-05-001-13-001                                                                              30
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

3.     Unemployment Trust Fund
       Status of Prior Year Finding and Recommendation

       Unemployment Compensation Advisory Council

       In the FY 1997 audit (OIG Report No. 12-98-002-13-001), the OIG reported that the
       Unemployment Compensation Advisory Council (UCAC) required by the Social Security Act has
       not been reestablished. Section 908 of the Social Security Act makes no provision for delaying
       the establishment of a new advisory council, and the issues for which the UCAC is responsible
       are significant to the UI program. The report included the following recommendation:

           We recommend that the Assistant Secretary for Employment and Training ensure that the
           Unemployment Compensation Advisory Council is reestablished as required by Section 908
           of the Social Security Act.

       In FY 2003, management indicated that a legislative proposal developed by the Department and
       approved by OMB in 2003 to reform the Unemployment Insurance (UI) program included a
       section that would amend the current law requirement that an Advisory Council on
       Unemployment Compensation be convened every 4 years. The legislative proposal would
       authorize the Secretary of Labor to convene a council periodically. ETA anticipated pursuing this
       change to the advisory council statute in connection with comprehensive UI reform legislation.
       In FY 2004, management indicated that the legislative proposal has not yet been finalized and
       that the amendments would provide for an advisory council “at the discretion of the Secretary.”
       ETA disagrees with this recommendation and is pursuing an appeal to the Deputy Secretary to
       resolve this finding.

       This recommendation is unresolved until such time that ETA complies with the requirement to
       establish a UCAC. We concur that the issue should be raised to the Deputy Secretary.

       Management’s Response

       “ETA disagrees with the OIG’s recommendation and will go forward with an appeal to the
       Deputy Secretary to resolve this finding.”

       Auditors’ Conclusion

       Our audit conclusion remains unchanged.


4.     Black Lung Disability Trust Fund
       Status of Prior Year Finding and Recommendation

       Inaccurate Responsible Mine Operator Accounts Receivable Balances

       In the FY 1999 Management Advisory Comments (OIG Report No. 12-00-006-16-001), the OIG
       included recommendations concerning Responsible Mine Operator (RMO) accounts receivable
       balances sent to the Solicitor’s Office. These accounts often remain at the Solicitor’s Office for
       extended periods of time but are not updated as appropriate while there.


Report No. 22-05-001-13-001                                                                            31
                                                       Findings And Recommendations Identified In An
                                                Audit Of The Report On Performance And Accountability

          The following recommendation was made to the Division of Coal Mine Workers’ Compensation
          (DCMWC):

              DCMWC should update each account receivable no less frequently than once a year for
              disability benefits and medical bills paid since the account was last updated.

          During our audit testing for FY 2003, we noted that only 8 of 15 accounts had correct balances.
          The remaining seven accounts were not updated with benefits and or medical bills paid, or were
          updated with unsupported balances. In July 2004, we were informed by management that the
          updates would remain an annual process, and that the update for FY 2004 would not take place
          until the last quarter. However, the updated RMO accounts receivable balances were not
          available at the time our year-end audit procedures were performed. This recommendation
          remains resolved and open. The accuracy of the RMO accounts receivable balances will be
          reviewed at the time the data becomes available for audit.

          We note that at the time this recommendation was made, financial statements were prepared only
          on an annual basis. Since that time, the Department has implemented quarterly reporting.
          Therefore, we conclude that management should update accounts receivable balances on a
          quarterly basis to coincide with the Department’s financial reporting requirements. Closure is
          dependent on evidence that indicates the accounts receivable balances are updated quarterly and
          are accurate.

          Management’s Response

          “DCMWC staff will update account receivable records for responsible operators in enforcement
          each quarter as recommended. During FY 2005 the Division expects to implement system
          enhancements that will make the updates whenever payments are made on these accounts.”

          Auditors’ Conclusion

          This recommendation remains resolved and open. The RMO accounts receivable balances will
          be reviewed in our FY 2005 audit. Closure is dependent upon a positive outcome from that
          review.


5.        Federal Employees’ Compensation Act (FECA)
          Status of Prior Year Findings and Recommendations

     a.   Lack of Social Security Wage Authorizations

          In the FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that controls were
          not effective in ensuring that Form SSA-581, Authorization to Obtain Earnings Data From the
          Social Security Administration, was sent to the claimant and proper follow-up performed on
          unreturned forms. We noted that the Office of Workers’ Compensation Programs does not have
          automated procedures to ensure the timely request and receipt of this required claimant
          information. Therefore, the system relies upon the ad-hoc tracking systems utilized by the
          individual Claims Examiners (CEs) in each of the District offices.




Report No. 22-05-001-13-001                                                                             32
                                                      Findings And Recommendations Identified In An
                                               Audit Of The Report On Performance And Accountability

        The FY 2003 audit report included the following recommendation:

            We recommend that the Chief Financial Officer and the Assistant Secretary for
            Employment Standards develop an adequate system to ensure that Claims Examiners
            obtain and review SSA-581 forms as required by FECA program policy.

        FY 2004 audit testing of a statistical sample of 118 cases that required a Form SSA- 581
        identified 8 cases (7 percent) where the CE did not send a second request to obtain social security
        wage data if a response to the first request was not received. While this is an improvement from
        our prior year test results, this error rate indicates that this control is still only moderately
        effective.

        In response to our FY 2003 audit report, Management submitted a corrective action plan with
        timeframes for completion. The corrective action plan includes the implementation of a new
        automated system, which includes a periodic entitlement review (PER) application that indicates
        the absence of the SSA-581 forms in the file. This will then update the CE task and reminder
        lists through the Workload Organization Window (WOW) application. Supervisors will be able
        to sort the reminding lists to identify overdue tasks.

        This system is scheduled to be tested and implemented in December 2004. Therefore, this
        finding is resolved and open, pending the effective implementation of this automated system and
        our review in the FY 2005 audit.

        Management’s Response

        “Management agrees with this position.”

        Auditors’ Conclusion

        This finding remains resolved and open, pending effective implementation of this automated
        system and a positive outcome from our review of this system in the FY 2005 audit.

   b.   Medical Bill Sampling

        In the FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that in the
        Philadelphia, Jacksonville, and San Francisco District offices, monthly medical bill sampling was
        not performed as required by OWCP procedures. In September 2003, OWCP began
        implementation of a new contractor-provided medical bill processing system. This centralized
        bill processing shifted the primary responsibility for monitoring the medical bill payments from
        the District offices to the National office.

        An independent review of medical bills is an important internal control to ensure the accuracy,
        quality, and security of the bill processing operation. If the medical bill reviews are not
        performed, it increases the risk that management will fail to identify and correct errors and
        deficiencies in the medical bill processing on a timely basis. The risk that improper payments
        may be made is also increased.

        In the FY 2003 audit report, we recommended that:

            The Chief Financial Officer and the Assistant Secretary for Employment Standards
            ensure that medical bills are reviewed on a timely basis at all District offices in


Report No. 22-05-001-13-001                                                                               33
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

           accordance with FECA Bulletin No. 98-05 and that existing guidance is updated to
           reflect implementation of the Improper Payments Act in FY 2004.

       Our testing of medical bills in the FY 2004 audit revealed the National office did not implement a
       formal review process for sampling the medical bills being processed by the contractor.
       Management provided a corrective action plan that includes draft procedures for an audit plan to
       be developed by September 2004 and implementation of the audit plan by October 2004.

       This finding is resolved and open, pending the effective implementation of the audit plan and
       our review in the FY 2005 audit.

       Management’s Response

       “Management agrees with this position. Draft procedures for an audit plan were developed in
       September 2004.”

       Auditors’ Conclusion

       This finding remains resolved and open, pending the effective implementation of the audit plan
       and a positive outcome of our review in the FY 2005 audit.


6.     Performance Measures
       Status of Prior Year Findings and Recommendations

       Unemployment Trust Fund

       The following recommendations were issued in an FY 1992 OIG audit report (OIG Report No.
       03-93-034-03-315) directly to the appropriate Assistant Secretary. We request that the CFO work
       with the Assistant Secretary to address these recommendations.

           Unemployment Insurance Service (UIS) should review validation methods for all other
           data elements contained on the Unemployment Insurance Required Reports.

       UIS began the Unemployment Insurance Data Validation (UIDV) implementation process in FY
       2003. As of mid-April 2004, states had submitted validation reports covering about 40 percent of
       the benefits report elements covered by the validation system, and 36 percent of the tax elements.
       Full implementation of the UIDV program is pending the receipt of actual validation reports from
       all states. The UIS expects all states to have completed validations by September 30, 2004.
       Therefore, this recommendation remains resolved and open. We will perform audit follow-up
       work after the UIDV program is fully implemented to evaluate whether this recommendation can
       be closed.

       Management’s Response

       “As of October 1, 2004, 42 states have implemented all or part of UI data validation. States that
       did not complete implementation or that “failed” some part of validation are required to submit
       corrective action plans.”




Report No. 22-05-001-13-001                                                                            34
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       Auditors’ Conclusion

       This recommendation remains resolved and open. Once validation reports have been received
       from all states, we will perform audit follow-up work to determine whether this recommendation
       can be closed.

           UIS should increase the period being validated from one month for quantity and one
           quarter for quality to an entire year.

       The Office of Workforce Security (OWS) disclosed that once UIDV is fully implemented, a
       determination would be made as to whether there are substantial benefits to conduct the
       validation on a full year’s data. The UIS expects all states to have completed validations by
       September 30, 2004. These states are validating one quarter of data for quality, and one month of
       data for quantity. Therefore, until OWS develops a corrective action plan to address increasing
       the validation period beyond one quarter for quality and one month for quantity, this
       recommendation is unresolved.

       Management’s Response

       “As previously explained, the UI validation program uses two tests: quantity and item (or
       quality) validation. Although the cost of performing additional months or quarters of quantity
       validations is expected to be low once all programming is done, this is not the case with quality
       (item) validation, which involves drawing and investigating samples and is quite labor intensive.
       Unless there is evidence from UI data validation sample reviews that the underlying transactions
       contain substantial incidence of errors due to exercise of human discretionary judgment—the only
       source of continuing errors not subject to a one-time fix—validating a small segment of
       transactions is the reasonable and cost-effective approach. We also note that a year’s worth of
       quantity validation could be a major expense for some large states, such as California, where even
       a month’s or quarter’s worth of transactions involves the handling of massive extract files.

       ETA believes that the costs of extending the validation period will be large and that the reduction
       in potential for material misstatement of UI performance data will be small. The OIG has
       provided no evidence to support its stance that validating a one-year period is superior to the
       existing validation periods; nonetheless, once UI data validation is fully implemented, ETA will
       conduct a four-quarter review in several states to test the cost-effectiveness of an extended
       validation period.”

       Auditors’ Conclusion

       Our recommendation for the development of a corrective action plan to address increasing the
       validation period beyond one quarter for quality and one month for quantity remains unresolved,
       pending the outcome of ETA’s four-quarter review to test the cost-effectiveness of an extended
       validation period.




Report No. 22-05-001-13-001                                                                             35
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

7.     Longshore and Harbor Workers’ Compensation Act Special Fund
       Status of Prior Year Findings and Recommendations

       Lack of Written Policies and Procedures for the Longshore and Harbor Workers'
       Compensation Act (LHWCA) Special Fund

       In a memorandum dated April 13, 2004, the OIG issued a management advisory comment related
       to the Division of Longshore and Harbor Workers' Compensation (DLHWC), which administers
       the LHWCA special fund. The OIG found that the oversight, evaluation, monitoring, and control
       of DLHWC were informal and based primarily on institutional knowledge by experienced staff.
       During the FY 2003 audit of LHWCA special fund, weaknesses were identified regarding the
       lack of readily available, up-to-date procedure manuals at the National office level. Specifically,
       there were no written procedures to direct staff on how to accurately adjust or write off
       transactions for receivables relating to monies owed for assessments and for overpayments to
       claimants, and there no written policies on the Fund Balance with Treasury reconciliation process
       relating to the SF 224 and the FMS 6652 report.

       The weaknesses noted create a high risk for discontinuity of major program operations should the
       office experience substantial staff turnover. As of FY 2003, approximately 60 percent of the staff
       was eligible to retire. These weaknesses also increase the possibility of improper or inconsistent
       accounting for transactions under various general ledger accounts.

       The OIG made the following recommendation:

           We recommend that the Director of the Division of Longshore and Harbor Workers'
           Compensation ensures that written operating manuals are prepared at the National Office
           level to document key operating areas, including: write off of transactions and adjustments
           for receivables, and the Fund Balance with Treasury reconciliation process relating to the
           SF 224 and the FMS 6652 report.

       Management has agreed with our recommendation and the preparation of the written operating
       procedures is pending. However, no timeline for completion was provided. This finding is
       unresolved pending receipt of a corrective action plan for the timely completion of the written
       procedures, including proposed dates.

       Management’s Response

       “ESA is in the process of developing written operating procedures. We expect to complete the
       process by April 30, 2005.”

       Auditors’ Conclusion

       Based on management’s response, this finding is resolved and open pending our receipt and
       review of the written procedures.




Report No. 22-05-001-13-001                                                                              36
                                                    Findings And Recommendations Identified In An
                                             Audit Of The Report On Performance And Accountability

8.     Accountable Property
      Status of Prior Year Findings and Recommendations

      In the FY 2001 Findings and Recommendations to the Chief Financial Officer (OIG Report No.
      22-02-004-13-001), the OIG reported that the Department does not have adequate accountable
      property systems in place. Federal law (31 U.S.C. 3512 (c) (B) requires the Department to
      maintain effective control over, and accountability for, assets for which the agency is responsible,
      and to safeguard these assets against waste, loss, unauthorized use and misappropriation.

      These assets include both assets capitalized for financial statement purposes and other
      “accountable property.” The OIG noted that several agencies did not have adequate written
      procedures and systems developed for identifying and tracking accountable property, and made the
      following recommendations:

           We recommend that the Chief Financial Officer ensure that the Assistant Secretary for
           Administration and Management establish written Department-wide procedures, including
           the Joint Financial Management Improvement Program’s ( JFMIP) property management
           system requirements, for identifying and tracking all accountable property.

           We recommend that the Chief Financial Officer ensure that the Assistant Secretaries for
           Administration and Management and Employment Standards identify and track
           accountable property to be incorporated into a property management system.

       As of FY 2004, two agencies within the Department have not completed implementing inventory
       systems to track accountable property. The status of these two agencies follows:

       Office of the Assistant Secretary for Administration and Management (OASAM)

       In response to our request of an update on the status of prior year audit recommendations,
       OASAM stated it has been moving forward on implementing the new “E-Property” system. A
       property management software package was acquired, and OASAM has been working closely
       with the DOL agencies on developing physical inventories of agency personal property. The
       DOL “E-Property” Workgroup meets regularly to coordinate and communicate the project DOL-
       wide. Full implementation on the core DOL “E-Property system is currently on schedule. The
       rollout is planned for November 22, 2004. In conjunction with implementation of Oracle Assets,
       OASAM will issue a revised DLMS, Chapter 100, Property Management Policy and Procedures
       on December 22, 2004.

       Based on these actions both recommendations are resolved and open pending effective
       implementation of the new system and corresponding tracking procedures.

       Management’s Response

       “The attached updated DLMS 2 Chapter 100, Property Management, has been extensively revised
       and is in the final stage of clearance, with only one issue to be resolved. The revised DLMS
       chapter establishes the policy and assigns responsibilities for DOL management of accountable
       property in accordance with Federal law and JFMIP guidelines. OASAM has also developed a
       new Form DL1-55, which was revised to capture all data fields necessary for JFMIP compliance
       and, at the same time, is structured to facilitate entry of this data into the new DOL E-Property



Report No. 22-05-001-13-001                                                                            37
                                                     Findings And Recommendations Identified In An
                                              Audit Of The Report On Performance And Accountability

       system. In addition, OASAM developed and issued a manual entitled “Procedures for
       Conducting a Physical Inventory”, and accompanying training, which was used to collect baseline
       information to populate the new E-Property system for OASAM and other agencies. To date,
       approximately 300 DOL employees have been trained in the use of the new E-Property system,
       including staff from all agencies and from both the national office and regions.

       OASAM has implemented a new E-Property system to manage DOL accountable property. The
       new system is JFMIP-compliant. OASAM has completed a physical inventory of accountable
       property in its offices nation-wide, has completed entry of the data into the E-Property system,
       and is using the system to maintain its property inventory. Based on these actions, we consider
       the recommendation, as it relates to OASAM, closed pending confirmation by the OIG.

       It should also be noted that the Employment Standards Administration also is on board using the
       new DOL E-Property system. To date, over 70 ESA staff from locations nationwide have been
       trained on the system, and ESA has been using the system to record property data.”

       Auditors’ Conclusion

       Based on the information provided by management, the first recommendation is closed. The
       second recommendation remains resolved and open pending our verification in the FY 2005
       audit that the physical inventories were complete and all property has been entered into the E-
       Property system.

       Employment Standards Administration (ESA)

       ESA did not have an adequate system in place for tracking accountable property FY 2002 and FY
       2003. In response to our request of an update on the status of prior year audit recommendations,
       ESA stated it was selected to participate in the first pilot group to adopt the new property system.
       ESA participated in organizational meetings with OASAM and contractor staff and the first of
       multiple training sessions began in April 2004. The completion date for implementing the
       recommendations is December 2004.

       The second recommendation remains resolved and open with respect to ESA pending the
       implementation of the property management system.

       Management’s Response

       “Management agrees with this position.”

       Auditors’ Conclusion

       Based on information provided by management, the first recommendation is closed. The second
       recommendation remains resolved and open pending verification that physical inventories are
       complete and all property has been entered into the E-Property system.




Report No. 22-05-001-13-001                                                                              38
